** *.

Printed by: s1060
Printed date/time: 3/21/19 5:21

Page 18 of 18

Incident Report

SARPY COUNTY SHERIFF'S OFFICE
8335 PLATTEVIEW ROAD
PAPILUON, NEBRASKA 68046
(402) 593-2288

Incident Number: LSOI90201003656

This case is considered open in the tiles of this office. Additional reports are forthcoming.

Sergeant Kyle Percifield/1060
ENTERED DATE/TIME: 3/11/2019 19:18:59
NARRATIVE TYPE: SUPPLEMENTAL
SUBJECT: BOLDT NARRATIVE
AUTHOR: BOLDT, VICTORIA
On 2/1/19 at approximately 1830 hrs, I, Lt. V. Boldt/1020 responded to a fatality crash at Hwy 31 and North Star
Drive as the Commander of the Sarpy County Crash Response Unit. At the scene I was tasked with media
relations as well as assisted in evidence collection via Nikon Total Station by manning a prism on data points of
interest.
On March 8, 2019,1, Lt. V. Boldt/1020 received the equations and variables from Sgt. Kyle Percifield/1060. As
part of the reconstruction process, equations were used to find a minimum speed for both the suspect vehicle
(VW Jetta) as well as the victim vehicle (Honda CRV).
Upon review of Sgt. Percifield's use of the proper equations and execution of those equations, I concur with the
final numbers regarding minimum pre-impact speeds for the Jetta and CRV, respectively. Please see the
attached documents for details in handwritten notes and equation sheet/definitions. It should be noted all inputs
for distances were provided by Sgt. Percifield from his working scale diagram: I did not create my own
independent diagram for the aforementioned inputs.
As a Crash Reconstructionist since 2007 and an ACTAR accredited Reconstructionist since 2010; I reviewed
Sgt. Percifield's methodology in calculating minimum speeds involved in this collision and all data appears to
be consistent with known facts of the case as well as evidence at the scene.
This report is information only and supplemental to the original report. End of report.

i

i

